             Audit Report




Analysis of Hearing Offices Using
        Key Risk Factors




     A-12-13-13044 | December 2013
MEMORANDUM


Date:      December 20, 2013                                                  Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)

           The attached final report presents the results of our audit. Our objective was to analyze
           individual hearing office performance using a number of key risk factors developed as part of
           our January 2013 review, Identifying and Monitoring Key Risk Factors at Hearing Offices.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Analysis of Hearing Offices Using Key Risk Factors
A-12-13-13044

December 2013                                                              Office of Audit Report Summary

Objective                                  Our Findings

To analyze individual hearing office       We developed a model that measured variances among multiple
performance using a number of key          risk factors. The model analyzes performance and outcome data
risk factors developed as part of our      among ALJs in the same office and uses five risk factors: (1) ALJ
January 2013 review, Identifying and       allowance rates, (2) ALJ dispositions, (3) ALJ on-the-record (OTR)
Monitoring Key Risk Factors at             decision rates, (4) ALJ dismissal rates, and (5) ALJ average
Hearing Offices.                           processing time. While the Agency’s monitoring process identified
                                           a number of potential workload problems at the time of our review,
Background                                 such as ALJ-specific issues and productivity declines, our model
                                           offers another method to evaluate the performance of individual
Administrative law judges (ALJ) and        hearing offices.
senior attorney adjudicators (SAA) in
169 hearing offices and 5 national         Using our model and FY 2012 workload data, we identified hearing
hearing centers (NHC) issued over          offices with the highest and lowest variance scores. We believe
820,000 dispositions in Fiscal Year        outlier hearing offices provide ODAR managers with indications of
(FY) 2012. In conducting this work,        potential processing issues (high-variance) as well as potential best
ALJs, managers, and staff are expected     practices (low-variance). We found 4 regions had 20 percent or
to adhere to the Office of Disability      more of their hearing offices among the 25 high-variance offices,
Adjudication and Review’s (ODAR)           and 4 regions had 20 percent or more of their hearing offices among
policies and procedures to ensure each     the 25 low-variance offices. In discussions with ODAR regional
claimant has a fair hearing. The           managers, we learned that they focused their oversight on
Agency expects its managers to             individual ALJ performance rather than variances among ALJs in
monitor the quality of the hearing         hearing offices as we do in our model.
process, ensure sufficient resources are
directed to key workloads, and address     Finally, our review of the hearing offices with the 10 highest
allegations pertaining to deviations       variance scores identified an outlier ALJ who had a significant
from proper case handling.                 number of dispositions and OTR decisions with 1 claimant
                                           representative. We referred this case to ODAR management for
In an earlier review, Identifying and      additional review.
Monitoring Risk Factors at Hearing
Offices, we found ODAR had created         Our Recommendations
19 ranking reports that measured
hearing office performance using           1. Determine whether the methodology provided in this report
individual risk factors. However,             would assist ODAR in monitoring hearing office performance,
ODAR had not established a process to         with the understanding that the number and nature of the risk
rank hearing office performance using         factors can be adjusted to meet the needs of management.
a combination of risk factors.
                                           2. Ensure ODAR’s early monitoring system combines existing
                                              information on ALJ OTR decisions and case rotation to identify
                                              any ALJ who issues a high percentage of OTR decisions with
                                              the same claimant representative.

                                           The Agency agreed with the recommendations.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     OIG Hearing Office Key Risk Factor Model .............................................................................3
     Hearing Office Variance Scores by Region ...............................................................................6
           Regional Distribution of Variance Scores ...........................................................................6
           Regional Comments on Monitoring and the Model ............................................................7
     Hearing Office Risk Factors and Productivity ...........................................................................8
           ALJ Frequency Among Factors ...........................................................................................8
           Hearing Office Productivity and Timeliness .....................................................................10
Conclusions ....................................................................................................................................12
Recommendations ..........................................................................................................................12
Agency Comments .........................................................................................................................12
Appendix A – Scope and Methodology ..................................................................................... A-1
Appendix B – Hearing Office Key Risk Factor Model .............................................................. B-1
Appendix C – Hearing Office Selection Criteria ....................................................................... C-1
Appendix D – Hearing Office Interviews................................................................................... D-1
Appendix E – Agency Comments ...............................................................................................E-1
Appendix F – Major Contributors............................................................................................... F-1




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)
ABBREVIATIONS
ALJ                  Administrative Law Judge

APT                  Average Processing Time

CPMS                 Case Processing and Management System

CR                   Claimant Representative

DART                 Disability Adjudication Reporting Tool

DQ                   Division of Quality

FY                   Fiscal Year

HOCALJ               Hearing Office Chief Administrative Law Judge

NHC                  National Hearing Center

OAO                  Office of Appellate Operations

OCALJ                Office of the Chief Administrative Law Judge

ODAR                 Office of Disability Adjudication and Review

OIG                  Office of the Inspector General

OTR                  On-the-Record

RCALJ                Regional Chief Administrative Law Judge

SSA                  Social Security Administration




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)
OBJECTIVE
To analyze individual hearing office performance using a number of key risk factors developed
as part of our January 2013 review, Identifying and Monitoring Key Risk Factors at Hearing
Offices.

BACKGROUND
The Office of Disability Adjudication and Review’s (ODAR) 169 hearing offices and 5 National
Hearing Centers (NHC) 1 issued over 820,000 dispositions in Fiscal Year (FY) 2012.
Administrative law judges (ALJ), managers, and staff follow ODAR’s policies and procedures to
ensure each claimant has a fair hearing on his/her claim. ODAR managers monitor the quality of
the hearing process, ensure key workloads have sufficient resources, and address deviations from
proper case handling.

In our 2013 review, Identifying and Monitoring Risk Factors at Hearing Offices, 2 we found
ODAR had created 19 ranking reports that measured hearing office performance using individual
risk factors, 3 such as average processing time and pending cases per ALJ. Since FY 2011,
ODAR has been developing and refining an early monitoring system to measure ALJ
performance based on a combination of risk factors, such as number of dispositions, number of
on-the-record (OTR) decisions, and frequency of hearings with the same claimant representative.
Moreover, ODAR established a new Division of Quality (DQ) in the Office of Appellate
Operations (OAO) that reviews potential issues identified in the early monitoring system to
ensure the ALJ decision complies with established policies and procedures. However, ODAR
had not established a process to rank hearing office performance using a combination of risk
factors.

In our review, we examined hearing office risk factors particular to ALJs to determine whether
such information, either alone or combined with outcomes from ODAR’s early monitoring
system, would provide ODAR management with additional information to assess hearing office
management controls. We found large variances in ALJ outcomes within and among hearing
offices, indicating that further review of ALJ performance variances in hearing offices, as well as
a new hearing office monitoring system using a combination of risk factors, would offer ODAR
additional tools to assess hearing office management controls. Moreover, we noted that greater


1
 NHCs assist hearing offices by transferring and processing cases from the most heavily backlogged offices. NHCs
conduct video hearings and operate in Albuquerque, New Mexico; Baltimore, Maryland; Chicago, Illinois; Falls
Church, Virginia; and St. Louis, Missouri. NHCs are directed by the Office of the Chief ALJ in Falls Church,
Virginia. For more information about the NHC operations, see our audit report, The Role of National Hearing
Centers in Reducing the Pending Hearings Backlog (A-12-11-11147), April 2012.
2
 Social Security Administration (SSA), Office of the Inspector General (OIG), Identifying and Monitoring Risk
Factors at Hearing Offices (A-12-12-11289), January 2013.
3
  Throughout the report, we use the term “risk factor” to connote a workload or performance measure that may
indicate problems with the underlying process if it varies too far from Agency expectations.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                              1
analysis of hearing office variance could put issues identified in ODAR’s early monitoring
system and quality reviews into a broader context.

To complete this review, we developed a hearing office risk factor model and used the Case
Processing and Management System (CPMS) closed claims databases for FYs 2010 through
2012 to compute the variances among ALJs for all of ODAR’s hearing offices and NHCs. We
also held multiple meetings with ODAR headquarters executives and managers during which we
discussed the benefits and limitations of our hearing office risk factor model. We also obtained
input from all of ODAR’s 10 regional management teams about their experiences monitoring
hearing office performance as well as the utility of our model. 4

RESULTS OF REVIEW
We developed a model that measured variances among multiple risk factors. The model
analyzes performance and outcome data among ALJs in the same office and uses five risk
factors: (1) ALJ allowance rates, (2) ALJ dispositions, (3) ALJ OTR decision rates, (4) ALJ
dismissal rates, and (5) ALJ average processing time (APT). While the Agency’s monitoring
process identified a number of potential workload problems at the time of our review, such as
ALJ-specific issues and productivity declines, our model offers another method to evaluate the
performance of individual hearing offices.

Using our model and FY 2012 workload data, we identified the hearing offices with the highest
and lowest variance scores. High variances in performance and outcomes between ALJs in the
same office, using multiple factors, could highlight potential issues related to processing controls
and management oversight of cases at the hearing offices. On the other hand, hearing offices
with low-variance scores could highlight best practices that can be used at other offices to
address related issues. We found 4 regions had 20 percent or more of their hearing offices
among the 25 high-variance offices, whereas 4 regions had 20 percent or more of their hearing
offices among the 25 low-variance offices. In discussions with ODAR regional managers, we
learned that they focused their oversight on individual ALJ performance rather than variances
among ALJs in hearing offices as we do in our model.

Finally, our review of the hearing offices with the 10 highest variance scores identified an outlier
ALJ with a significant number of dispositions and OTRs with 1 claimant representative. We
referred this case to ODAR management for additional review.




4
    See Appendix A for a further discussion of our scope and methodology.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                 2
OIG Hearing Office Key Risk Factor Model
We created a hearing office key risk factor model 5 that identified variances in performance and
case outcomes among ALJs in the same office using multiple risk factors. The variables we
included in our model were ALJ

•      allowance rates, 6
•      dispositions,7
•      OTR rates, 8
•      dismissal rates, and
•      APT. 9

We calculated the variance in ALJ performance and case outcomes for each of the 5 variables
and sorted the 167 hearing offices for each variable. 10 We then added the five scores to obtain a
total variance score, and we sorted the hearing offices from low to high-variance. 11 In Table 1,
we illustrate the variance scores between the hearing office with the highest total variance score
and the hearing office with the lowest total variance score. The total variance score for Office 1
(783) indicates there was high-variance among ALJs in the hearing office among the 5 risk
factors. For instance, the high-allowance ALJ had an 85-percent allowance rate, while the low-
allowance ALJ had a 25-percent allowance rate. The 60-percent difference in allowance rates
among the ALJs in the office placed Office 1 as 160 of 167 offices.




5
    See Appendix B for more information on our model.
6
    We calculated the decisional allowance rate for ALJs, meaning we did not include dismissals in our calculations.
7
 For our model, we only calculated variances among ALJs with 200 or more dispositions during the year. In this
way, we hoped to avoid including ALJs who may have been working at the office for only part of the year, were on
detail, or had other circumstances that precluded a full year’s worth of work.
8
 OTR decisions, which are generally favorable, occur when an ALJ or SAA has determined a decision can be issued
without a hearing. OTR decisions can also occur when the claimant has waived the right to a hearing.
9
  We calculated processing time for closed cases by determining the number of days from the date the hearing was
requested through the date of disposition. We then averaged it for each ALJ.
10
  We counted each of the five NHCs as hearing offices for the purposes of the model. We excluded three small
hearing offices because each had an insufficient number of ALJs meeting our criteria for us to calculate variances.
In addition, we excluded four satellite offices that did not report workloads during our review period. The
workloads at these satellite offices were added to the workload totals of the parent hearing office.
11
  After discussions with ODAR executives and managers, we agreed that we would apply equal weights to each
variable in this model.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                     3
                           Table 1: Hearing Office Key Risk Factor Model
                          Variance Score for Two Hearing Offices in FY 2012
                       Allowance                     OTR       Dismissal
                                      Disposition                           APT        Total
          Hearing         Rate                       Rate        Rate
                                       Variance     Variance               Variance   Variance
           Office      Variance                                Variance
                                         Score                              Score      Score
                         Score                       Score      Score
          Office 1         160            150         143            165     165        783
          Office 2          17             8           11             5       3          44

Office 2 had a variance score of 44, which indicated the ALJs in the Office had less variance
among the 5 risk factors. For example, the ALJs in Office 2 had a similar allowance rates,
dispositions, OTR rates, dismissal rates, and APTs. Even though Office 2 did not have the
lowest variance score in any of the variables, it did have the lowest total variance score among
all of the hearing offices when we added each of the five scores together.

Among the 167 hearing offices and NHCs in our model for FY 2012, the median variance score
was 407. 12 Individual hearing office variance scores ranged from a low of 44 to a high of
783 (see Figure 1).




12
     The mean for FY 2012 data was 419.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                 4
                                                Figure 1: Range in Hearing Office Variances Using
                                                    the OIG Hearing Office Risk Factor Model
                                                                    (FY 2012)
                                 26
                                 24                                 Median - 407
                                 22
                                 20
     Number of Hearing Offices




                                 18
                                 16
                                      25 low-variance                                        25 high-variance
                                 14   score offices                                          score offices
                                 12
                                 10
                                 8
                                 6
                                 4
                                 2
                                 0



                                                          Key Risk Factor Variance Scores

Figure 1 identifies hearing offices with the highest and lowest variance scores, or the outliers,
which we subjected to further analysis (we discuss this analysis in the next section of this report).
High variances in performance and outcomes between ALJs in the same office, using multiple
factors, could highlight issues related to processing controls and management oversight of cases
at the hearing offices. On the other hand, hearing offices with low-variance scores may provide
some best practices that can be used at other offices to address potential issues. We understand
that one ALJ may affect multiple measures or an entire office may be at an extreme of a risk
factor, limiting the utility of such analysis, but analyzing such variances provides another tool to
managers overseeing hearing office operations. Moreover, while the Agency’s monitoring of its
workload may identify a number of potential workload problems, such as ALJ-specific issues
and productivity declines, our model offers another method to evaluate the performance of
hearing offices. 13




13
     We discuss ODAR’s monitoring process later in the report.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                              5
Hearing Office Variance Scores by Region
We reviewed the high- and low-variance score outlier hearings offices by region to gain an
understanding of their nation-wide distribution. 14 We also contacted the 10 regional management
teams to (1) learn about how they monitor hearing offices and (2) obtain their views on the
hearing office risk factor model.

Regional Distribution of Variance Scores
We found 4 regions had 20 percent or more of their hearing offices among the 25 high-variance
hearing offices, with 1 region having 35 percent of its hearing offices among the highest variance
offices. Three regions had at least 1 high-variance office but less than 19 percent of their hearing
offices among the 25 high-variance offices. The remaining three regions had none of their
hearing offices among the highest variance offices (see Figure 2: ).

       Figure 2: Regional Distribution of the 25 High-Variance Hearing Offices in FY 2012



                                                           4 Regions
          Hearing Offices




                                         Had 20 percent of more of their hearing offices
          High-Variance




                                              among the 25 high-variance scores


                                                            3 Regions
                                         Had at least 1 high-variance office but less than
                                          19 percent of their hearing offices among the
                                                     25 high-variance scores


                                                           3 Regions
                                                 Had no hearing offices among the
                                                     25 high-variance scores




We also found 4 regions had 20 percent or more of their hearing offices among the
25 low-variance hearing offices, with 1 region having 25 percent of its hearing offices among the
lowest variance offices. Five regions had at least 1 low-variance office but less than 19 percent




14
     We focused on hearing offices in the 10 regions and not the NHCs in this section.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                 6
of their hearing offices among the 25 low-variance offices. One region had no hearing offices
among the lowest variance offices (see Figure 3: ). 15

     Figure 3: Regional Distribution of the 25 Low-Variance Hearing Offices in FY 2012



        Hearing Offices                                 4 Regions
                                      Had 20 percent of more of their hearing offices
         Low-Variance

                                           among the 25 low-variance scores


                                                         5 Regions
                                      Had at least 1 low-variance office but less than
                                       19 percent of their hearing offices among the
                                                  25 low-variance scores


                                                         1 Region
                                              Had no hearing offices among the
                                                   25 low-variance scores



Regional Comments on Monitoring and the Model
In our conversations with regional managers, we learned their oversight primarily focused on
ALJ productivity and timely movement of cases through the hearing process. For example, the
regional managers used management information (MI) reports to monitor the number of cases
pending, transferred, and developed for each ALJ. Regional management teams told us they
used CPMS, the Disability Adjudication Report Tool (DART), and the How MI Doing? 16 tool to
monitor ALJs’ workloads, including dispositions and APTs. Furthermore, 5 of the 10 regions
stated they also developed hybrid reports using DART and/or CPMS MI to better track ALJ
dispositions and case status. For example, one of the reports shared by the Chicago Region
showed dispositions for all the ALJs in that Region, with a projection of the ALJ total
dispositions for the FY. In addition, the regions monitored cases in judge-controlled workload
statuses to ensure timely processing. One region manager explained:




15
  One region had more than 22 percent of its hearing offices among the highest variance offices and another
22 percent of its hearing offices among the lowest variance offices.
16
  ODAR rolled out the How MI Doing? reporting tool on August 9, 2011, which allows ALJs, decision writers, and
senior case technicians to monitor and compare their performance to their peers in the office, region, and nation.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                               7
           The Regional Chief ALJ (RCALJ) and Hearing Office Chief ALJ (HOCALJ) have
           ongoing conversations with judges to gain their cooperation in moving work timely.
           If the HOCALJ cannot gain cooperation through an informal discussion, the RCALJ
           will contact the ALJ and have an informal discussion as well. If these conversations
           are not productive and there is no underlying factor affecting the judge from taking
           timely action such as [the Judge’s] availability, the RCALJ may determine if further
           action is required.

In addition, the majority of the regional management teams agreed a few of its hearing offices
had productivity issues that they attributed in part to variances among the five risk factors we
identified in our model. For example, the Dallas Region determined three of its hearing offices
were experiencing significant variances among the ALJs’ processing times and allowance rates.
These three hearing offices were part of the 25 hearing offices with the highest variance scores in
our model. However, none of the regional managers indicated they were analyzing a
combination of variances in a way that was similar to our model.

In terms of the key risk factors we used in our model, the regions suggested the model could be
modified to include other factors, such as remand rates, ALJ availability, number of hearings
scheduled/held, and cases that do not timely move through the hearing process. Our model
offers sufficient flexibility for the regions to focus on additional or different factors, which will
be useful to regional managers for monitoring their offices.

We also reviewed six hearing offices in three regions—one low- and one high-variance score
office per region—and identified issues related to the scores that we shared with regional
managers. For instance, we were told at one of the offices with a high-variance score that one
ALJ had missed many workdays because of health issues. Having the ALJ often on sick leave,
they explained, caused variances in the hearing office performance since other ALJs were
covering his hearings. 17

Hearing Office Risk Factors and Productivity
We reviewed the hearing offices with the highest variance scores to learn more about the role of
individual ALJs in each office’s score. We also compared the results of our hearing office
matrix with ODAR hearing office ranking reports to identify commonalities and differences.

ALJ Frequency Among Factors
We examined the 10 highest variance scores in 11 hearing offices for FY 2012 to determine
whether 1 or multiple ALJs contributed to the variances. 18 Our analysis found two offices had
one ALJ as an outlier in all five risk factors. Being an outlier in all five risk factors meant the


17
     See Appendix D for more information on the six interviews,
18
  The 10 highest variance scores related to 11 hearing offices two offices tied for the 10th highest score. The
11 hearing offices were located in 4 regions. Eight of the 11 hearing offices have been part of earlier OIG reviews
related to such ALJ issues as case rotation and allowance rates outliers.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                    8
ALJ was either the highest or the lowest contributor in each of the five risk factors. In Table 2,
we provide the range of ALJ frequencies among the 5 risk factors in the 11 hearing offices.

                        Table 2: Frequency of ALJs Associated with Five Factors
                         at 11 Hearing Offices with the Highest Variance Scores

                                                                                     Percent of Hearing
                      ALJ Frequency Among                            Number of
                                                                                         Offices in
                       Model Risk Factors                          Hearing Offices
                                                                                        Population
           Same ALJ Among 5 Factors                                         2                 18%
           Same ALJ Among 4 Factors                                         5                 46%
           Same ALJ Among 3 Factors                                         3                 27%
           Same ALJ Among 2 Factors                                         1                  9%
           Totals                                                          11                100%

In one office where the ALJ was an outlier in all five risk factors, we identified a potential
rotation issue with a claimant representative. During our analysis, we found the outlier ALJ
issued 22 percent of his workload with one claimant representative, even though this claimant
representative represented only about 10 percent of the hearing office’s overall workload in
FY 2012. Furthermore, about 82 percent of the claimant representative’s cases before this ALJ
were issued as OTR decisions. 19 While other ALJs in the office issued OTRs with this same
claimant representative, about 61 percent of the claimant representative’s OTR cases were with
the outlier ALJ. The hearing office management team could not explain why this ALJ’s
workload was greater with that claimant representative than what was expected under a normal
rotation of cases. 20 The analysis also showed the ALJ’s average decisional allowance rate with
all the other representatives was 89 percent, while his decisional allowance rate with the one
representative was 96 percent.

In our 2013 report, 21 we stated ODAR had begun developing an early monitoring system to
measure ALJ performance based on a combination of risk factors. A few of the factors the
system tracked were the ALJs’ number of dispositions, number of OTR decisions, and frequency
of hearings with the same claimant representative. This monitoring system assisted the Office of
the Chief ALJ (OCALJ) in determining whether a particular ALJ’s decision making needed
further review. If ODAR executives determined further attention was needed, they requested
OAO’s DQ staff to conduct a focused review of the ALJ’s decisions. Hence, it is likely that this
system was already measuring some of the issues we identified in our model, particularly where




19
     We notified ODAR headquarters, regional managers, and the hearing office managers about this finding.
20
     We did not find a similar rotation issue in the other 10 hearing offices.
21
     SSA, OIG, Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289), January 2013.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                           9
one ALJ was associated with all five risk factors. 22 However, as noted, we identified offices
where multiple ALJs were associated with high-variance scores, which may provide the Agency
with further insights on potential hearing office issues.

When we discussed our model outliers with ODAR staff responsible for the early monitoring
system, we learned that this system was not monitoring the ratio of ALJ-OTR decisions with one
claimant representative at the time of our review. Moreover, when we shared information
concerning the ALJ rotation issue highlighted above, we learned DQ conducted two reviews on
the ALJ in question, though these reviews highlighted the ALJ’s dispositions and allowance rate,
not the OTR rotation issue we identified. 23 We believe the early monitoring system could be
enhanced by detecting high rates of OTR decisions between an ALJ and a representative.

Hearing Office Productivity and Timeliness
When we compared hearing offices with the 10 highest variance scores from our model to
ODAR’s national “ranking” reports for productivity24 and APT, we found our model highlighted
some hearing offices that may not draw management’s attention when using the two ODAR
reports. For example, the CPMS reports showed Office 7 had a high productivity ranking of
16 and an above-average APT ranking of 77 (see Table 3). In other cases, the model and ODAR
results were more aligned. For instance, Office 5 had similar results across all three reports with
a low productivity score of 164 and an APT score of 139.




22
  DQ has performed two focused reviews on the ALJ we identified as having a possible rotation issue with a claimant
representative. Cases from this ALJ were also part of DQ’s random sample of their pre-effectuation review, with
DQ taking a higher than average own motion decision on his cases. Own motion means DQ remanded the case to
the ALJ, or issued its own decision on a case. For more information on OAO’s pre-effectuation reviews, see
Congressional Response Report: The Social Security Administration’s Review of Administrative Law Judges’
Decisions (A-07-12-21234), March 2012.
23
     We shared our findings related to this ALJ with ODAR management for appropriate review and resolution.
24
     CPMS MI, National Ranking Report by ALJ Dispositions Per Day Per ALJ.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                             10
                        Table 3: OIG Hearing Office Key Risk Factor Model
                              Results Versus CPMS Ranking Reports
                                            (FY 2012)
                   Highest Variance
                                                 ODAR Productivity              ODAR APT
                  Hearing Office From
                                                  Ranking Report2             Ranking Report3
                     OIG Model1
                Office 1                                     33                         77
                Office 2                                    136                        131
                Office 3                                    104                        159
                Office 4                                     54                         74
                Office 5                                    164                        139
                Office 6                                    134                        125
                Office 7                                     16                         77
                Office 8                                    111                        146
                Office 9                                    104                         38
                Office 10                                    66                         34
                Office 11                                    54                         40
               Notes: 1. Hearing offices are shown from highest to lowest model variance scores.
                      2. Hearing offices are ranked from highest productivity to lowest productivity. The higher
                         the productivity in an office, the lower the ranking
                      3. Hearing offices are ranked from most timely case processing to least timely. The lower
                         the processing time in an office, the lower the ranking.

We used FY 2010 and 2011 workload data in our hearing office key risk factor model to
determine whether the Huntington, West Virginia, Hearing Office had a high-variance score. 25
Among all of the hearing offices, the Huntington Office had the second highest variance score in
FY 2010 and third highest score in FY 2011. Furthermore, the model identified the ALJ
referenced in the media article as a strong outlier among all of the other ALJs in the hearing
office. 26 We also found that the Huntington Hearing Office was listed as one of ODAR’s best
performing offices in the FY 2010 productivity and APT ranking reports. The CPMS report on
ALJ productivity showed the Huntington Hearing Office ranked 12th best in the nation while
APT ranking report had it ranked second best in APT. ODAR realized that its hearing office
ranking reports did not identify outlier ALJs and, as previously mentioned, began developing an



25
  Congressional concerns related to potential workload anomalies in this office led to our review of ALJ outliers
nationwide. See our 2012 report, Congressional Response Report: Oversight of Administrative Law Judge
Workload Trends (A-12-11-01138), February 2012.
26
  ODAR responded by implementing management controls that prevent an ALJ from assigning and re-assigning
cases to themselves or others. In addition, in FY 2011 the outlier ALJ in the Huntington Hearing Office retired and
ODAR replaced the Hearing Office management team. Our model showed that in FY 2012, the variance score for
the Huntington Hearing Office became closer to the national average.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                  11
early monitoring system to identify outlier ALJ performance. 27 We believe our hearing office
risk model can similarly assist in identifying potential hearing office issues for ODAR managers
that go beyond the productivity ranking reports.

CONCLUSIONS
During our review, we tested our model that measures variances in performance and outcomes
between ALJs in the same office, using five risk factors. If used by ODAR, the model would
enhance its early monitoring system by evaluating overall hearing office performance, not just
the performance of outlier ALJs. We found 4 regions had 20 percent or more of their hearing
offices among the 25 high-variance offices, and 4 regions had 20 percent or more of their hearing
offices among the 25 low-variance offices. Further analysis of the hearing offices with the
10 highest variance scores also helped identify a hearing office with possible rotation issues
involving an ALJ who produced a significant number of OTR with one claimant representative.
Adding OTR decision ratios for ALJs and representatives to its current ALJ early monitoring
system would assist ODAR in further identifying possible rotation issues. In addition, while
ODAR’s national ranking reports measure hearing office performance using only one risk factor,
our five-factor model can offer additional insights about the operations in these offices.

RECOMMENDATIONS
In our previous audit related to hearing office risk factors, we recommended SSA (1) ensure its
ALJ early monitoring system becomes a permanent part of management oversight and use this
information to timely address potential anomalies in the hearings process, (2) create new MI
reports combining ALJ-related hearing office risk factors, which could include variances within
those factors.

To enhance the monitoring of hearing offices, we recommend SSA:

1. Determine whether the methodology provided in this report would assist ODAR in
   monitoring hearing office performance, with the understanding that the number and nature of
   the risk factors can be adjusted to meet the needs of management.

2. Ensure ODAR’s early monitoring system combines existing information on ALJ OTR
   decisions and case rotation to identify any ALJ who issues a high percentage of OTR
   decisions with the same claimant representative.

AGENCY COMMENTS
The Agency agreed with our recommendations. See Appendix E for the full text of SSA’s
comments.



27
     SSA OIG, Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289), January 2013.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                        12
                                       APPENDICES




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)
Appendix A – SCOPE AND METHODOLOGY
To accomplish our objective, we:

•     Reviewed applicable laws and Social Security Administration (SSA) policies and procedures,
      including the Office of Disability Adjudication and Review’s (ODAR) Hearings, Appeals,
      and Litigation Law Manual.

•     Reviewed previous Office of the Inspector General reports related to administrative law
      judge (ALJ) and hearing office workloads.

•     Reviewed relevant SSA studies and reviews conducted by ODAR, the Office of Appellate
      Operations, and the Division of Quality.

•     Interviewed ODAR headquarters executives, managers, and staff.

•     Reviewed Case Processing and Management System (CPMS) and Disability Adjudication
      Reporting Tools ad hoc management information reports to identify risk factors ODAR was
      already tracking.

•     Obtained Fiscal Years (FY) 2010 to 2012 workload statistics on ALJs from ODAR’s CPMS.
      Using these data, we calculated ALJ allowances, dismissals, productivity, on-the-record
      decisions, and average processing time and determined the variances of these factors at all
      hearing offices. 1

•     Interviewed 46 staff, managers, and ALJs at 6 hearing offices in 3 regions. 2

We found FY 2010 through 2012 CPMS data were sufficiently reliable to meet our objectives.
The entity audited was the Office of the Deputy Commissioner for Disability Adjudication and
Review. We conducted this performance audit from November 2012 through June 2013 in
accordance with generally accepted government auditing standards. Those standards require that
we plan and conduct the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objectives.




1
    See Appendix B for more information on the model.
2
    See Appendix C for selection of these hearing offices and Appendix D for summary of hearing office interviews.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                              A-1
Appendix B – HEARING OFFICE KEY RISK FACTOR MODEL
We created a model based on risk factors identified in our previous risk factor audit. 1 We
identified the following as potential hearing office risk factors (see Table B–1).

                            Table B–1: Risk Factor Variable and Definition
             Risk Factor Variable                                       Definition
                                                 Number of ALJ favorable decisions divided by ALJ
      Administrative Law Judge (ALJ)
                                                total decisions and converted to a percent, dismissals
             Allowance Rate
                                                                     not included.
               ALJ Dispositions                 Total number of ALJ dispositions at a hearing office.
                                                Number of ALJ OTR decisions 2 divided by ALJ total
      ALJ On-the-Record (OTR) Rate
                                                       dispositions and converted to a percent.
                                                   Number of ALJ dismissals divided by ALJ total
             ALJ Dismissal Rate
                                                       dispositions and converted to a percent.
                                                The number of days from the request for hearing date
       ALJ Average Processing Time
                                                  through the date of disposition, and calculated the
                 (APT)
                                                             average APT for each ALJ.

For FY 2012 model, we used the following methodology:

1. We removed all ALJs from our model who had fewer than 200 dispositions at a hearing
   office during the fiscal year. 3 We excluded ALJs who issued fewer than 200 dispositions to
   account for newly hired ALJs and ALJs working in offices for only part of a year. 4

2. We categorized the hearing offices by the number of ALJs who issued dispositions in the
   office: small (fewer than seven ALJs), medium (seven or eight ALJs), and large (more than
   eight ALJs). We did this to ensure the number of ALJs in an office did not skew our
   variance analysis.




1
 We selected these five factors after reviewing previous Office of the Inspector General audits and the Office of
Disability Adjudication and Review’s early monitoring system. Social Security Administration (SSA), Office of the
Inspector General (OIG), Identifying and Monitoring Risk Factors at Hearing Offices (A-12-12-11289),
January 2013.
2
 OTR decisions, which are generally favorable, occur when an ALJ issues a decision without a hearing. OTR
decisions can also occur when the claimant has waived the right to a hearing
3
 By excluding ALJs with less than 200 dispositions, our model omits ALJs that might have been with the Agency
for years and were low producers. The Agency also calculates ALJ availability, which may be another method for
modifying the model.
4
    About 12 percent of the ALJs were excluded from our model.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                           B-1
3. We calculated the variance for each of the five risk factors between the highest ALJs and
   lowest ALJ in the hearing office. In Table B–2, we illustrate how we computed the variance
   in one variable in the model. In Office 1, the highest ALJ allowance rate was 96 percent,
   while the lowest was 25 percent. The variance was 71 percent. Office 2 had an ALJ
   allowance rate variance of 4 percent.

               Table B–2: Example of a Variance in Allowance Rates Among ALJs at
                             Two Hearing Offices in Fiscal Year 2012
           Hearing Office           Highest Allowance             Lowest Allowance            Variance
               Office 1                      96%                          25%                    71%
               Office 2                      79%                          75%                     4%

4. We then sorted the offices from 1 to 167, with 1 having the lowest variance between the
   2 judges for each of the 5 risk factors. 5

5. We combined the variance scores for each factor to determine an overall variance score for
   each office (see Table B–3). 6

Table B–3: Example of Two Hearing Office Overall Variance Score Calculation in FY 2012
                   Allowance                                             Dismissal
                                    Disposition       OTR Rate             Rate             APT           Overall
    Hearing           Rate
                                     Variance         Variance                             Variance       Variance
     Office        Variance                                              Variance
                                       Score           Score                                Score          Score
                     Score                                                Score
    Office 1           132               167              107                 42              124            572
    Office 2            45                1                76                  2              132            256

We sorted the hearing offices from the lowest overall variance score to the highest. Since there
were 167 hearing offices and we had 5 workload factors, the maximum possible score was 835.
However, the highest score among the 167 hearing office was 783.




5
 We counted each of the five NHCs as hearing offices for the purposes of the model. We excluded three small
hearing offices because each had an insufficient number of ALJs meeting our criteria for us to calculate variances.
In addition, we excluded four satellite offices that did not report workloads during our review period. The
workloads at these satellite offices were added to the workload totals of the parent hearing office.
6
 After discussions with ODAR executives and managers, we agreed that we would apply equal weights to each
variable in this model.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                B-2
Appendix C – HEARING OFFICE SELECTION CRITERIA
We interviewed individuals at six hearing offices to learn more about the characteristics of high-
and low-variance offices identified in our key risk factor model. To identify the offices to be
visited, we used Fiscal Year (FY) 2011 and 2012 closed case data from the Office of Disability
Adjudication and Review’s Case Processing and Management System (CPMS) to calculate the
variances among administrative law judges (ALJ) in the same hearing office (as described in
Appendix B) and sorted the hearing offices from lowest to highest variance.

Using the sorted hearing offices, we identified Social Security Administration (SSA) regions that
had at least one lower variance and one higher variance office in the same State. We then
focused on large hearing offices 1 that met criteria and were no more than 200 miles apart.
Finally, from this new group, we selected hearing offices that were not part of a previous Office
of the Inspector General hearing-related workload audit.

We used these criteria to learn more about wide variances between hearing offices (1) managed
by the same regional management team, (2) operating in the same State where workload
differences would be minimized,2 and (3) not already part of a prior OIG review where we might
be familiar with the circumstances related to these variances.

We selected two hearing offices using FY 2011 CPMS data since they were the latest data
available at the time of our first two visits (see Table C–1). We selected the remaining four
hearing offices using FY 2012 CPMS data. 3

                                       Table C–1: Six Hearing Offices
                          Hearing Office             Region              FY CPMS Data
                             Chicago                Chicago                  FY 2011
                              Peoria                Chicago                  FY 2011
                           Elkins Park            Philadelphia               FY 2012
                           Wilkes-Barre           Philadelphia               FY 2012
                            Greenville              Atlanta                  FY 2012
                            Columbia                Atlanta                  FY 2012

We interviewed managers, ALJs, and staff at six hearing offices: three hearing offices with
high-variance scores and three hearing offices with low-variance scores.



1
    Large hearing offices have nine or more ALJs processing cases.
2
 For instance, cases in both offices were more likely to be processed by the same State disability determination
services staff.
3
  All of the offices we visited for both periods were among the 30 highest variance or 30 lowest variances offices in
the model.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                 C-1
Appendix D – HEARING OFFICE INTERVIEWS
We conducted interviews at six hearing offices in three States in three regions to test our model
outcomes with offices in the same region. In each region, we selected one hearing office among
the highest variance score offices and one office among the lowest variance score offices. 1 We
used this approach to learn more about wide variances among hearing offices managed by the
same regional management team and operating in the same State to minimize management and
workload differences between the offices. 2 We also focused on hearing offices that were not
already part of prior Office of the Inspector General reviews. Managers, ALJ, and staff stated
that the reasons for the high variance in hearing offices included judge availability, office
morale, and hearing office management’s style.

First Region: Office Morale
In the first region, the high-variance office had a score of 695, while the low-variance office had
a score of 173 (see Table D–1). 3

        Table D–1: Variances Among ALJs at Two Hearing Offices at the First Region
                                   (Fiscal Year 2011)
                       Allowance       Disposition                      Dismissal                         Total
                                                       OTR Rate                            APT
                          Rate                                            Rate                           Variance
    Hearing Office                      Variance       Variance                           Variance
                       Variance                                         Variance                          Score
                         Score           Score          Score                              Score
                                                                         Score
    High-Variance
                           153             146              95              149              152             695
        Office
    Low-Variance
                           62               34              48               17               12             173
        Office

During our visit, we found that some ALJs in the high-variance office stated they had concerns
about the Agency’s 500 to 700 dispositions-per-year goal since the Agency had not completed a
study to demonstrate that this was a suitable goal. An ALJ explained that management assessed
ALJs as good or bad performers based solely on their productivity and not on the quality of their
decisions. Staff said the ALJs’ concerns with the Agency’s dispositions-per-year goal had a




1
 We used the model’s five risk factors: (1) administrative law judge (ALJ) allowance rates, (2) ALJ dispositions,
(3) ALJ on-the-record (OTR) decision rates, (4) ALJ dismissal rates, and (5) ALJ average processing time (APT).
See Appendix B for the model and Appendix C for our selection methodology.
2
 For instance, cases in both offices were more likely to be processed by the same State disability determination
services staff.
3
 We selected the first two hearing offices using Fiscal Year (FY) 2011 CPMS data since they were the latest data
available at the time of our first two visits.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                                 D-1
negative effect on office morale. Further analysis of the statistics for this office showed 54
percent of the ALJs used in our model did not meet the 500-700 disposition goal in FY 2011. 4

At the low-variance hearing office in this region, managers stated that all of the ALJs were
striving to meet the Agency’s 500 to 700 cases. Management had a concern with one low-
producing ALJ, but stated the ALJ had started issuing more decisions after intervention by
regional management. 5 When we reviewed the statistics for this office, we found 71 percent of
the ALJs used in our model met or exceeded the 500 to 700 disposition goal in FY 2011.

Second Region: Judge Availability
In the second region, the high-variance office had a score of 614, while the low-variance office
had a score of 314 (see Table D–2).

         Table D–2: Variances Among ALJs at Two Hearing Offices at the Second Region
                                     (Fiscal Year 2012)
                          Allowance        Disposition                        Dismissal                    Total
                                                             OTR Rate                         APT
                             Rate                                               Rate                      Variance
    Hearing Office                          Variance         Variance                        Variance
                          Variance                                            Variance                     Score
                            Score            Score            Score                           Score
                                                                               Score
    High-Variance
                              148                54               165           139                 108     614
        Office
    Low-Variance
                               41                20               97             71                 85      314
        Office

During our discussions with management at the high-variance office, we were told that one ALJ
had missed many workdays because of health issues, and his absence led to variances in hearing
office performance. For the office to keep from rescheduling this ALJ’s cases when he was
absent, it scheduled the ALJ’s cases in the morning and the Hearing Office Chief Administrative
Law Judge’s (HOCALJ) cases in the afternoon. In this way, the HOCALJ could cover the
hearings for the ALJ when he was absent. This caused the HOCALJ to have more dispositions
than other ALJs in the office. We asked the other ALJs in the office about the reason for the
variance, but they stated they did not discuss their numbers with each other so they had no
opinion regarding the variances or could not comment on how other ALJs handled their
workloads. Hearing office management stated they had informed the regional office of the
situation concerning the absent ALJ.




4
    Total dispositions include all dispositions issued by the ALJ in one or more hearing offices.
5
    The staff at this office did not want to participate in our interviews.



Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                                             D-2
Managers, ALJs, and staff at the low-variance office stated the office had a good working
relationship. The ALJs in the office stated they did their fair share of the hearing office
workload and when a new judge came into the office, they sat down and agreed to share the
workload. We also learned that the low producing ALJ was new to the Agency, so she was not
expected to be as productive as the other ALJs in the office. New judges generally have lower
productivity until they gain enough experience on the job to become fully proficient.

Third Region: Management Style
In the third region, the high-variance office had a score of 669, while the low-variance office had
a score of 352 (see Table D–3).

      Table D–3: Variances Among ALJs at Two Hearing Offices at the Third Region
                                 (Fiscal Year 2012)
                    Allowance      Disposition                       Dismissal               Total
                                                   OTR Rate                       APT
                       Rate                                            Rate                 Variance
 Hearing Office                     Variance       Variance                      Variance
                    Variance                                         Variance                Score
                      Score          Score          Score                         Score
                                                                      Score
 High-Variance
                        123            132            158              119         137        669
     Office
 Low-Variance
                        153            102             41               46         10         352
     Office

ALJs, managers, and staff at the high-variance office mentioned the HOCALJ was particular
about how his decisions needed to be written, which increased the time it took to process a case.
According to hearing office managers and other ALJs, the hearing office lost a stable cadre of
decision writers because of this. Managers and ALJs also voiced concerns that the remaining
decision writers spent a larger portion of their time writing decisions for the HOCALJ.
Consequently, the other ALJs in the office stated they had most of their decisions written outside
of the parent hearing office, and the office ended up having to rewrite a high number of them,
which also caused delays in the process.

During our discussions with the hearing office managers at the low-variance office, we found
some similarities to the low-variance office in the second region. For example, manager and
ALJs stated that overall, they had a good working relationship, and the ALJs in the office did
their fair share of the hearing office workload. We also found the lowest producing ALJ was a
new judge and was therefore not expected to produce the same number of dispositions as the
more experienced ALJs. Management also stated that it was not necessary for them to monitor
the ALJs workload since they were all meeting the Agency’s goal. However, some of the ALJs
mentioned they had to work overtime to meet these goals.




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                               D-3
Appendix E – AGENCY COMMENTS




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)   E-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
"ANALYSIS OF HEARING OFFICES USING KEY RISK FACTORS" (A-12-13-13044)

Recommendation 1

Determine whether the methodology provided in this report would assist ODAR in monitoring
hearing office performance, with the understanding that the number and nature of the risk factors
can be adjusted to meet the needs of management.

Response

We agree that we should evaluate the methodology in the audit report. In fact, in calendar year
2013, our Office of Disability Adjudication and Review (ODAR) developed Electronic Hearing
Office Performance (eHOP) reports that use at least three of the data categories characterized in
the report as risk factors. We are further developing our eHOP reports to meet the needs of the
Office of the Chief Administrative Law Judge (OCALJ). OCALJ monitors the average
processing times (APT) at the hearing offices for the purpose of workload balancing and
periodically reviews APTs for Administrative Law Judges (ALJ). In addition, OCALJ monitors
the disposition pace of offices and ALJs.

Recommendation 2

Ensure ODAR’s early monitoring system combines existing information on ALJ OTR decisions
and case rotation to identify any ALJ who issues a high percentage of OTR decisions with the
same claimant representative.

Response

We agree with the intent of this recommendation, to consider other relevant ALJ data in
conjunction with our early monitoring system with the goal of identifying trends that could
enhance our compliance monitoring process. ODAR’s work on the early monitoring system is
still in development. On-the-record (OTR) rates are available in the Case Processing and
Management System’s management information reports. We will determine if we can combine
existing information on ALJ OTR decisions and case rotation to identify ALJs who issue a high
percentage of OTR decisions with the same claimant representative into a single report. The
early monitoring system is one tool ODAR uses to look for patterns of possible non-compliance.
The Office of Appellate Operations reviews requests for Appeals Council, ALJ allowances on
pre-effectuation, focused reviews, and other disability data in our case processing systems to
identify patterns that might warrant further review. We will work to determine if there is an
issue with patterns.



[In addition to the information listed above, SSA also provided technical comments, which have
been addressed, where appropriate, in this report.]




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)                             E-2
Appendix F – MAJOR CONTRIBUTORS
Walter Bayer, Director, Chicago Audit Division

Nicholas Milanek, Audit Manager, Crystal City Audit Office

Yaquelin Lara, Auditor-in-Charge

Brennan Kraje, Statistician




Analysis of Hearing Offices Using Key Risk Factors (A-12-13-13044)   F-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
